WAIVER

Supreme Court, U.S.
FILED

Supreme Court of the United States

DEC 1 1 2020
OFFICE OF THE CLERK

No. 20-740
Jim Bognet, et al.

v.

(Petitioners)

Kathy Boockvar, Secretary of
Pennsylvania, et al.
(Respondents)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
Cg There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):
Clarion County Board of Elections
Tioga County Board of Elections
I am a member of the Bar of the Supreme Court of the United States.
IN I am not presently. a member of the Bar of this Court. Should a response be requested,
the resp—onse will be filed by a Bar member.
Sig
Dam;—December.1 —202e
(Type or print) Name Stephanie L. Fera, Esquire
0 Mr.
L Ms.

0 Mrs.

0 Miss

Firm Cafardi Ferguson Wyrick Weis + Gabriel ]lc
Address 2605 Nicholson Road, Suite 2201
City & State Sewickley, PA
Phone

Zip 15143

412.515.8900

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONERS IF
PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.
Cc:

Cooper & Kirk, PLLC

RECEINISO
DEC 2 3 2020
E TititE CLOW

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

COW gpS.
R
SUPREME

CT

wit

CAFARDI FERGUSON WYRICK WEIS + GABRIEL tic
Scott Cooper, Legal Assistant
scooper@cfwwg.com
December 10, 2020

VIA US FIRST CLASS MAIL
Supreme Court of the United States
Attn: Clerk of Court
1 First Street, NE
Washington, DC 20543
RE: Jim Bognet et al. v. Kathy Boockvar, Secretary of Pennsylvania, et al.
Case No. 20-740
Dear Sir/Madam,
Enclosed please find a Waiver to be filed on behalf of the Clarion County Board of Elections and
the Tioga County Board of Elections in the above-mentioned case.
Thank you very much for your help in this matter. Please do not hesitate to contact me with any
questions or issues.
Cafard. Ferguson Wyrick Weis + Gabriel

Scott Cooper, Legal Assistant
Enclosure

•

2805 Nicholson Road I Suite 2201 I Sewickley, PA 15143 I 1412.515.8900 I F 412.515.8901
cfwwg.com

